  U.S. Department of the Interior
  Office of Inspector General




             AUDIT REPORT


             ROSEBUD SIOUX
         RURAL WATER SYSTEM,
MNI WICONI RURAL WATER SUPPLY PROJECT,
        BUREAU OF RECLAMATION

               REPORT NO. 99-I-499
                   MAY 1999
                                                                           W-IN-BOR-004-98(B)-R


               United States Department of the Interior
                               OFFICE OF INSPECTOR GENERAL
                                         Washington, D.C. 20240



                                                                                      MAY 2 8 892

                                     AUDIT REPORT
Memorandum

To:        Assistant Secretary for Water and Science

From.      Robert J. Williams 4U- &5.&.&-
           Assistant Inspector General for AuB
                                             its

Subject: Audit Report on Rosebud Sioux Rural Water System, Mni Wiconi Rural Water
         Supply Project, Bureau of Reclamation (No. 99-I-499)

                                     INTRODCJCTION
This report presents the results of our audit of the Rosebud Sioux Rural Water System,’
which is part of the Mni Wiconi Rural Water Supply Project, located in South Dakota. The
objectives ofthe audit were to (1) determine whether the costs incurred by the Rosebud Sioux
Tribe to plan, design, and construct its portion of the Project were expended in accordance
with Federal law, regulations, and funding agreements and (2) identify the source of any
incurred or projected cost overruns. The audit was performed as part of our audits of the
four non-Federal sponsors of the Mni-Wiconi Project, including the Rosebud Sioux Tribe.
The results of the audits of the other Project sponsors will be presented in separate reports.
The audit of the Mni-Wiconi Project was requested by three members of the Congress.

BACKGROUND
The Mni Wiconi Project Act of 1988 (Public Law 100-5 16) authorized and directed the
Secretary of the Interior to construct the Mni Wiconi Rural Water Supply Project to ensure
a safe and adequate municipal, rural, and industrial water supply for both Indian and
non-Indian residents of southwestern South Dakota. The Act authorized construction of the
Oglala Sioux Rural Water Supply System to serve the Oglala Sioux Tribe on the Pine Ridge
Reservation and the West River and Lyman-Jones Rural Water Systems to serve residents of




‘The Rosebud Sioux Tribe also refers to the Water System as the Sicangu Mni Wiconi Project. However. for
purposes of this report. the term Rosebud Sioux Rural Water System is used.
seven counties’ in South Dakota. In 1994, the West River and Lyman Jones Systems were
merged into one system, known as the West River/Lyman-Jones Rural Water System. The
Mni Wiconi Act Amendments of 1994 (Title 8 of Public Law 103-434) added construction
of the Rosebud Sioux Rural Water System and the Lower Brule Sioux Rural Water System
to serve the respective reservations, thereby increasing the number of Project sponsors to
four. The Amendments also raised the authorized appropriation ceiling for the Project from
$87.5 million to $263.2 million, subject to indexing,3 and provided that the Project would
generally be constructed in accordance with the Project’s Final Engineering Report, dated
May 1993.

The Act, as amended, also authorized the Secretary to enter into cooperative agreements with
the three tribes subject to the provisions of the Indian Self-Determination and Education
Assistance Act (Public Law 93-638), as amended, to provide funds for planning, designing,
constructing, operating, maintaining, and replacing their respective systems. Separate
cooperative agreements were authorized for planning, designing, and constructing the \Vest
River/Lyman-Jones System, with the project sponsor responsible for 20 percent ofthese costs
and for the entire cost of operating, maintaining, and replacing the System. The Bureau of
Reclamation serves as the oversight agency for the Project, with the authority and
responsibility to enter into cooperative agreements and to provide the technical and
administrative oversight necessary to complete the planning, design, and construction of the
Project. The Bureau’s oversight included review and approval of reports, construction plans,
specifications, work schedules, fund requests, and change orders.

The overall Project includes a water treatment plant, 4,500 miles of pipeline, 60 booster pump
stations, and 35 water storage reservoirs. The Project will ultimately serve more than
50,000 people, including more than 40,000 Indians on three reservations. In its May 1998
Master Plan,’ the Bureau estimated that the total cost to complete the Project would be
$387 million, or $60 million more than the indexed Project costs of $327 million. The
projected overrun was attributable to the Oglala Sioux and Lower Brule Sioux Systems. In




‘The sel.en counties are H&on. Jackson. Jones. Lyman. Mellette, Pennington. and Stanley.

%desing is the process of updating the Congressionally authorized appropnatron ceiling of a proJest for
changes generally attributable to economic factors, usually inflation.

The Master Plan established the construction schedule for each segment of the Project and documented
historical and projected costs to enable the Bureau and Project sponsors to track the status of the Project The
Plan also enabled the Bureau and Project sponsors to estimate the effect of changes in annual appropriations
and prices on the construction schedule. The Plan projected a Project construction ceiling of $327 rmllion,
indexed through October 1999. as presented in Bureau budget documents for fiscal year 2000. The Plan also
included a breakdown of this ceiling for individual Project sponsors. The total estimated Project costs of
$387 million were based on information provided by Project sponsors. The Bureau said that it plans to update
the Master Plan periodically.

                                                       2
the Master Plan, the Bureau also estimated that at current funding levels,’ the Federal share
of $327 million would not be appropriated until 2006. However, the authorization to
appropriate funds for the Project expires in 2003. As of September 30, 1998, the Bureau had
allocated Federal funds of $107.5 million to Project sponsors, including $4.3 million for
Bureau administration and oversight expenses charged to the sponsors.

The Rosebud Sioux Rural Water System as authorized consists ofabout 450 miles ofpipeline,
18 booster pump stations, and 18 water storage reservoirs, all of which will serve
approximately 17,000 people on the Rosebud Indian Reservation. Construction, operation,
and maintenance of the Rosebud System are managed by the Tribe’s Office of Water
Resources. The cost of the Rosebud System, originally estimated at $47.2 million in the Final
Engineering Report, was indexed in the Master Plan to $61.8 million (October 1999 dollars).
As of September 30, 1998, about $15.3 million (25 percent of the estimated cost) had been
appropriated, and about $10 million (16 percent of the estimated cost) had been expended.

SCOPE OF AUDIT
Our fieldwork was performed at the Rosebud Indian Reservation in South Dakota and the
offices of the Tribe’s accounting firm in Sioux Falls, South Dakota. The scope of the audit
included a review of records and expenditures for the Rosebud System from initial planning
in fiscal years 19926 through 1998. To accomplish our audit objectives, we interviewed
personnel from the Rosebud Sioux Tribe and the Bureau’s offices in Billings, Montana;
Bismark, North Dakota; and Pierre, South Dakota. We also interviewed personnel from the
Tribe’s engineering firm in Billings. We reviewed applicable legislation, including the Mni
Wiconi Act of 1988; Title 8 (Mni Wiconi Act Amendments) of the Yavapai-Prescott Indian
Tribe Water Rights Settlement Act of 1994 (Public Law 103-434) and related Congressional
hearings; and the Indian Self-Determination and Education Assistance Act (Public
Law 93-638) as amended. In addition, we reviewed the Bureau’s May 1998 Master Plan,
the System’s quarterly financial reports, the cooperative agreement between the Bureau and
the Tribe, and the Project’s May 1993 Final Engineering Report. We also reviewed the
Tribe’s financial statements and supporting documentation; procurement procedures; annual
workplans; the Municipal, Rural, and Industrial Water Needs Assessment Final Report,‘dated
July 1993; a cost reduction plan; and construction bid documents.

Our analysis ofthe financial status of the System was based on a review of expenditures, cost
estimates, and other financial and planning data available as of September 30, 1998. As such,


51n fiscal years 1996 through 1998. annual funding levels for the Project ai.eraged about $25 million.

“Prior to authorization of the Rosebud System in 1994. the Tribe received funds totaling $461,000 for initial
planning. including Project funds of $266.000 and non-Project funds of S195.000.

-The Tribe’s July 1993 Needs Assessment identified the current and future municipal. rural, and industrial
water needs of the Tribe and included cost estimates for the alternatives proposed to meet those needs.

                                                      3
our conclusions regarding any actual or projected cost overruns may be affected by
subsequent events concerning the cost and design of the System. These events include
modifications to, additions to, and deletions of construction components; revisions of cost
estimates based on current data; increases in authorized project costs attributable to cost
indexing; and efforts by the Bureau and the Tribe to implement cost-saving measures. In that
regard, the Bureau issued a draft Cost Containment Report in December 1998, which
included various options for reducing Project costs,

Our audit was conducted in accordance with the “Government Auditing Standards,” issued
by the Comptroller General of the United States. Accordingly, we included such tests of
records and other auditing procedures that were considered necessary under the
circumstances to accomplish our audit objectives. As part of our audit, we reviewed the
Secretary’s Annual Statement and Report to the President and the Congress, required by the
Federal Managers’ Financial Integrity Act, for fiscal years 1994 and 1995; the Departmental
Reports on Accountability for fiscal years 1996 and 1997, which include information required
by the Act; and the Bureau’s annual assurance statements on management controls for fiscal
years 1997 and 1998. Based on those reviews, we determined that no material weaknesses
were reported that directly related to the objectives and scope of our audit. In addition, we
reviewed the Tribe’s single audit reports and the certified public accountant’s working papers
for fiscal years 1994 through 1997 and found that this documentation did not disclose any
reportable conditions* or material weaknesses9 related to the Rosebud System. We also
reviewed the Tribe’s internal controls related to the Rosebud System to the extent necessary
to accomplish our audit objectives and did not identify any material weaknesses. We did not
review the administrative costs incurred by the Bureau to oversee the planning, design, and
construction of the Rosebud System.

PRIOR AUDIT COVERAGE

During the past 5 years, neither the Office of Inspector General nor the General Accounting
Office has issued any reports on the Mni Wiconi Rural Water Supply Project.



%tatement on Auditing Standards No. 60. “Communication of Internal Control Structure Related Matters
Noted in an Audit,” issued by the American Institute of Certified Public Xccountants. states that “reportable
conditions” are matters coming to the auditor‘s attention that, in the auditor’s judgment. should be
communicated to agency management. These matters relate to significant deficiencies in the design or
operation of the agency’s internal control structure that could ad\-ersely affect the agency’s ability to record,
process. summarize. and report financial data consistent with the assertions of management in the financial
statements.

‘Statement on Auditing Standards No. 60 also states that a material w-eakness is a reportable condition in
which the design or operation of one or more of the specific internal control structure elements does not
reduce to a relatively low level the risk that errors or irregularities in amounts which would be material to the
financial statements being audited may occur and not be detected within a timely period by employees in the
nomtal course of performing then assigned functions.

                                                       4
                                 RESULTS OF AUDIT
We found that the costs of $10 million incurred by the Rosebud Sioux Tribe as of
September 30, 1998, for planning, designing, and constructing the Rosebud Sioux Rural
Water System were expended in accordance with the Mni Wiconi Project Act of 1988, as
amended; Federal regulations; and the terms of the cooperative agreement between the
Bureau of Reclamation and the Tribe. We also found that a cost overrun was not projected
for the Rosebud System.

Cost Compliance

The Act, as amended, established the general parameters of the System, and Federal
regulations and cooperative agreements provide criteria governing the allowability and
reasonableness ofthe Tribe’s costs. Our conclusions that the costs incurred by the Tribe were
in compliance with these requirements were based on a review of the financial statements,
general ledger, subsidiary reports, and supporting records of the Tribe’s Office of Water
Resources for fiscal years 1994 through 1998 and the working papers of the Tribe’s certified
public accountant for fiscal years 1994 through 1997. Our review included both construction
and noncontract1o costs. Specifically, we reviewed all construction contract payment
vouchers and all payment vouchers to the Tribe’s engineering firm for planning and design,
which totaled $8,032,93 1. In addition, we tested costs of $96,914 recorded for Tribal
personnel, vehicles, rights-of-way, and easements to determine whether these costs were
allowable, reasonable, and necessary. The amounts reviewed made up 81 percent
($8,129,845) ofthe recorded Rosebud System’s costs through September 30, 1998. We also
reviewed the working papers of the Tribe’s certified public accountant to verify that the
Tribe’s system of accounting and internal controls was adequate to safeguard and properly
account for f%nds for the Rosebud System. Based on our review of the Tribe’s records and
the certified public accountant’s working papers, we did not ident@ any material amounts
of unsupported or questioned costs.

Changes to the Rosebud System

The Mni Wiconi Act, as amended, limits the costs for the Rosebud System to the amount
cited in the May 1993 Final Engineering Report for the Mni Wiconi Project, subject to
indexing. The indexed costs for the Rosebud System as determined by the Bureau for fiscal
year 2000 totaled $6 1.8 million. The Tribe’s consulting engineering firm estimated the costs
to construct the Rosebud System to be $59.6 million (excluding non-Project fUnds of
$195,000) based on changes to the System. As a result, the estimated costs to construct the




‘The May 1993 Final Engineering Report defined noncontract costs as those costs incurred prior to and
during construction that relate primarily to engineering and administratlon of construction.

                                                  5
Rosebud System are approximately $2.2 million less than the indexed costs determined by the
Bureau; consequently, a cost overrun is not projected for the Rosebud System.

The latest estimate by the Tribe’s engineering consulting firm resulted from changes in the
design of the Rosebud System. The Final Engineering Report and the Tribe’s July 1993
Municipal, Rural, and Industrial Water Needs -4ssessment Final Report are planning
documents that generally describe the system to be constructed. However, according to
representatives of the Tribe’s engineering firm, design and engineering changes made during
field-level planning, which we confirmed, resulted in numerous additions, deletions, and other
revisions to the System. These revisions, which were approved by the Bureau, included the
addition of an administrative/operation and maintenance building and shop, the elimination
of four booster pumps/stations, and six changes to System storage reservoirs. We found that
the net effect of the changes was that the estimated cost of constructing the Rosebud System
was less than the Bureau’s computed indexed amount.

Other Matters

We found that, through September 30, 1998, the Rosebud Sioux Tribe incurred noncontract
costs at an overall rate of 57 percent of System construction costs, which exceeds the
4 1.2 percent rate provided for in the Tribe’s July 1993 Needs Assessment. Bureau officials
stated that noncontract costs are usually higher in the beginning phases of a construction
project because ofhigher “front-end” costs for planning and design and that noncontract costs
generally decrease as construction progresses, which has occurred for the Rosebud System.
Specifically, the overall rate of 57 percent through September 30, 1998, is lower than the
94 percent rate through September 30, 1997, and the 130 percent rate through September 30,
1996. While the rate is decreasing as expected, we believe that the Bureau and the Tribe need
to monitor the System’s noncontract costs to ensure that the System can continue to be
constructed within the indexed amount of $6 1.8 million.

Since this report does not contain any recommendations, a response is not required

The legislation, as amended, creating the Office of Inspector Genera1 requires semiannual
reporting to the Congress on all audit reports issued, actions taken to implement audit
recommendations, and identification of each significant recommendation on which corrective
action has not been taken.

We appreciate the assistance of Bureau and Tribal personnel in the conduct of our audit.




                                              6
                          ILLEGAL OR WASTEFUL ACTIVITIES
                              SHOULD BE REPORTED TO
                         THE OFFICE OF INSPECTOR GENERAL


                                       Internet/E-Mail Address

                                              www.oig.doi.gov



                              Within the Continental United States

        U.S. Department of the Interior                         Our 24-hour
        Office of Inspector General                             Telephone HOTLINE
        1849 C Street, N.W.                                     l-800-424-508 1 or
        Mail Stop 5341                                          (202) 208-5 300
        Washington, D.C. 20240

                                                                TDD for hearing impaired
                                                                (202) 208-2420 or
                                                                l-800-354-0996


    I                         Outside the Continental United States

                                             Caribbean Region

        U.S. Department of the Interior                         (703) 235-922 1
        Office of Inspector General
        Eastern Division - Investigations
        4040 Fairfax Drive
        Suite 303
        Arlington, Virginia 22203

                                            North Pacific Region

        U. S . Department of the Interior                     (671) 6476060
        Offke of Inspector General
        North Pacific Region
        415 chalan San Antonio
        Baltej Pavilion, Suite 306
        Tamuning, Guam 96911


I
Toll Free Numbers:
 l-800-424-5081           w
 TDD l-800-354-0996
                          E
                          5
FTS/Commercial Numbers:
 (202) 208-5300
 TDD (202) 208-2420       t
                          :

 HOTLINE i
1849 C Street, N.W.
Mail stop 5341
Wd lin~ton. D.C. 20240
      0
